No.

Jfn tbe ~upreme <ttourt of tbe Wntteb ~tates
AT&T MOBILITY LLC; NEW CINGULAR WIRELESS PCS LLC; NEW CINGULAR
WIRELESS SERVICES, INC.,

Petitioners,
V.

STEVEN MCARDLE,

Respondent.

CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for Petitioners and a member of the Bar of this
Court, certify pursuant to Rule 33.l(g) of the Rules of this Court that the Petition
for a Writ of Certiorari in the above-captioned case contains 7,720 words, excluding
the parts of the petition that are exempted by Rule 33.l(d).

Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
apincus@mayerbrown.com
(202) 263-3000

